              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Management of the Department's
Personnel Security and Access
Control Information Systems




DOE/IG-0651                                 June 2004
REPORT ON MANAGEMENT OF THE DEPARTMENT'S
PERSONNEL SECURITY AND ACCESS CONTROL
INFORMATION SYSTEMS



TABLE OF
CONTENTS



              Personnel Security and Physical Access Systems

              Details of Finding ............................................................ 1

              Recommendations .......................................................... 4

              Comments....................................................................... 5


              Appendices


              1. Objective, Scope, and Methodology .......................... 8

              2. Prior Reports ........................................................... 10

              3. Management Comments ......................................... 11
PERSONNEL SECURITY AND PHYSICAL ACCESS SYSTEMS

System Modernization   While the electronic Department of Energy (Department)
Integration, and       Integrated Security System (eDISS+) in place at the time of our
Development            review may ultimately improve personnel security processing, the
                       initiative was not designed to, and will not address, many of the
                       functionality and access issues reported by a number of sites.
                       Specifically, Central Personnel Clearance Index (CPCI)
                       enhancement efforts will not include a number of site-level needs
                       and will not reduce or eliminate the dependence on separate,
                       locally developed and maintained tracking systems. In addition,
                       the effort to improve physical access control systems was not well
                       organized and lacked the capability to reduce duplicative and
                       overlapping system development efforts.

                                       Clearance Tracking Systems

                       Although the Department plans to make further enhancements to
                       CPCI, planned modifications will not address a number of site-
                       level needs. Originally deployed in 1968, CPCI is used to
                       maintain clearance data for Federal and contractor employees.
                       However, according to site officials, it lacks a number of functions
                       needed to effectively manage such information. Specifically,
                       contractor officials told us that the current initiatives to enhance
                       CPCI will not track special or temporary access authority (such as
                       those required for nuclear material handling); provide electronic
                       reconciliation with site-level personnel security tracking systems;
                       or enable field sites to generate customized security reports.

                       Planned upgrades to CPCI will also not increase access or enhance
                       processing capabilities for contractor operated facilities. For
                       example, contractors at a number of sites will not be granted
                       sufficient access to make electronic updates to CPCI, requiring
                       manual update processes to be used. Clearance terminations will
                       continue to be made by methods such as "hand delivery" or faxing
                       various forms to responsible Federal officials. As we observed in
                       our report on Personnel Security Clearances and Badge Access
                       Controls at Selected Field Locations (DOE/IG-0582,
                       January 2003), manual termination methods tend to be more labor
                       intensive, are susceptible to errors based on timing differences, and
                       can increase the risk that individuals will gain access to sites even
                       though their association with the Department has ended.




Page 1                                                       Details of Finding
         Responsible Headquarters personnel told us that they understood
         site concerns regarding CPCI and that they were aware of cost and
         data reliability issues associated with the use of manual methods.
         Nevertheless, the Department planned to support the CPCI in its
         present form and continue to restrict contractor access to the
         system. While Headquarters officials indicated that they permitted
         contractors to modify CPCI when serving under direct supervision
         at Federal locations, they believed that extending access to
         contractor personnel in private company locations could affect data
         integrity. In subsequent discussions, Headquarters officials
         clarified their comment and indicated that they did not want to
         expand access to contractor personnel at government-owned and
         contractor operated facilities. Headquarters system owners
         indicated that the information contained in CPCI was highly
         sensitive and that data entry functions could not be directly
         entrusted to contractors. These officials maintained their position
         even though they acknowledged that contractors maintain the same
         data in local systems and understood that system level protections
         were available.

         The current modernization effort also will not address longstanding
         problems with duplicative and redundant development and
         maintenance of site-level security information systems.
         Specifically, Headquarters security officials indicated that
         sufficient resources do not exist to resolve CPCI functionality and
         access issues discussed above. Accordingly, contractors at each
         major site told us they must continue to develop and maintain
         separate, but functionally equivalent personnel security systems.
         We noted that problems with duplicate development have not
         improved substantially since we reported the issue in our 2000
         report on Corporate and Stand-Alone Information Systems
         Development (DOE/IG-0485, September 2000). For example, our
         review disclosed that each of the eight sites we visited or obtained
         data from had developed and were maintaining a separate
         clearance tracking system. Officials from the National Nuclear
         Security Administration (NNSA) Service Center in Albuquerque
         told us it cost over $660,000 to develop and maintain its personnel
         security system.




Page 2                                        Details of Finding
                            Access Control Systems

         Our audit disclosed that the Department maintains a number of
         duplicative and overlapping physical access control systems. Such
         systems, designed to limit or control access through electronic,
         mechanical, or biometric means, are used to protect sensitive
         material and sites across the complex. The Department's current
         effort to improve physical access control systems will not reduce
         duplicative and overlapping system development or increase the
         ability to share data between these systems.

         The Complex Wide Access Control (CWAC) project was designed
         to provide a capability to allow sites to retrieve fundamental
         information regarding Department and contractor employees
         visiting Departmental sites. However, it lacked the capability to
         reduce duplicative overlapping system development that is
         occurring at the field sites. Furthermore, the project has not been
         well defined. Even though the CWAC project has been in
         planning or development since 1995, the Department has not yet
         determined which sites will use it or how implementation will
         proceed. In particular, while the sites we visited were aware of the
         project, none understood the cost and schedule for implementation.
         In addition, we learned that a cost-benefit analysis had not been
         conducted and, despite a number of changes in scope and schedule,
         the project plan had not been adequately updated. Had CWAC
         been incorporated into the Department's E-government initiative, it
         may have focused the development and deployment effort, helped
         increase integration, reduced the number or type of separate
         physical access control systems, and increased the return on the
         $3.5 million invested in the project to date.

         Even when in close proximity to one another, sites chose to operate
         independent access control systems. For example, until recently,
         Oak Ridge Reservation sites shared the same access control
         system. However, in 2001, Oak Ridge National Laboratory
         (ORNL) installed its own separate access control system that uses
         proximity cards. Meanwhile, the Y-12 Complex (Y-12) is
         considering replacing its access control system – which is shared
         by the East Tennessee Technology Park – and may also use
         proximity cards. However, responsible Y-12 officials we spoke to
         had no plans to integrate this system with ORNL's new access
         control system. Additionally, Los Alamos National Laboratory,
         Sandia National Laboratories, and the NNSA Service Center each




Page 3                                        Details of Finding
                       maintained independent access control systems despite constant
                       interaction among personnel assigned to the sites. Thus, frequent
                       and cumbersome reconciliations were necessary to ensure
                       appropriate access to these sites.

Security Information   Efforts to modernize and improve the efficiency of personnel
Systems Approach       security and physical access control systems were at risk because
                       the Department had not developed a comprehensive security
                       systems framework. Specifically, the Department had not
                       determined the most effective method to manage personnel
                       security and physical access across the complex. No central
                       authority had been established and no organization had taken the
                       initial step of developing a framework by identifying the universe
                       of personnel security and access control systems and their
                       associated costs. As we have noted in prior reports, absent a
                       comprehensive framework to guide systems development
                       activities, there is no mechanism to ensure that systems being
                       developed are not duplicative or redundant and are able to
                       communicate with one another. In addition, as we noted in the
                       development of physical access control systems, the Department
                       did not always apply sound project management practices such as
                       cost-benefit analyses or the maintenance of up-to-date project
                       plans for systems development initiatives.

Costs and Security     The Department spent or plans to spend at least $13 million to
Risks                  develop, implement, or maintain multiple systems that duplicate
                       functionality and are not adequately integrated. This includes over
                       $5 million for the separate access systems development efforts at
                       the Oak Ridge Reservation. Without a comprehensive plan, the
                       Department may be unable to restrict future duplicative
                       development efforts or improve the cost-effectiveness and
                       reliability of its security systems. Additionally, the lack of systems
                       integration increased the risk that sites would grant access to
                       unauthorized individuals based on ineffective or untimely
                       information updates.


RECOMMENDATIONS        We recommend that the Under Secretary for Energy, Science and
                       Environment and the Administrator, National Nuclear Security
                       Administration, in conjunction with the Director, Office of
                       Security and Safety Performance Assurance and the Chief
                       Information Officer:

                          1. Develop a comprehensive framework for managing and
                             integrating personnel security and access control systems
                             Department-wide by:


Page 4                                                                    Comments
                          a)   Determining the universe of personnel security and
                               access control systems across the complex and the
                               costs associated with operating and maintaining these
                               systems; and,

                          b)   Developing and implementing a plan, based on data
                               gathered and an assessment of corporate systems
                               capabilities, for ensuring that personnel security and
                               access control systems are not duplicative, have the
                               ability to share data, and will provide maximum
                               benefit to the Department.

                      2. When selecting, developing and implementing future
                         personnel security and access control systems, require that
                         organizations comply with existing Office of Management
                         and Budget (OMB) and other established standards and
                         policies related to capital investment, project management
                         and systems development. Specifically, ensure that all
                         efforts include elements such as cost-benefit analyses,
                         project plans, critical decisions and senior management
                         oversight and approval.


MANAGEMENT         Management generally concurred with the report's overall
REACTION           conclusion and the intent of the report's recommendations.
                   Management agreed that dependence by sites on duplicative,
                   locally developed systems hampers efficiency and is not cost
                   effective. However, management disagreed that the problems in
                   this report derive from the Department's lack of a comprehensive
                   framework for its personnel security and access control systems.
                   Management also believed that the report should have emphasized
                   the need for compliance with the Department's existing policies
                   and procedures and OMB regulations regarding information
                   systems planning, acquisition, development, and management.
                   Management further indicated that the risk of expanding access to
                   CPCI outweighs any potential cost or time savings. The Office of
                   Security and Safety Performance Assurance also provided a
                   number of technical comments regarding the report.


AUDITOR COMMENTS   Management's comments are partially responsive to our
                   recommendations. While we are encouraged that management
                   agrees in principle and plans to address our recommendations, we
                   disagree with its assertion that a framework is in place and that the
                   Department has fielded a complete enterprise architecture. We


Page 5                                                                Comments
         found the lack of a security framework was a root cause of the
         problems identified. Specifically, the examples of duplicate and
         overlapping access control systems contained in this report
         demonstrate that the Department does not have an agreed upon set
         of standards or requirements for controlling development of new
         personnel security and access control systems -- an integral and
         essential component of a framework for making investment
         decisions. Establishing a framework that includes a complete
         enterprise architecture would give the Department the tools
         necessary to determine how complex-wide needs should be
         addressed. As noted previously, we have issued a series of reports
         that highlight the lack of such a comprehensive approach to
         information technology management.

         With regard to management's concern that our report should
         emphasize the need for compliance with existing Department
         policies and procedures and OMB regulations, we agree and have
         made several changes to the report and recommendations to reflect
         that concern.

         We also agree with management's position that the Department
         needs to maintain strict control over CPCI and grant access only on
         the basis of a legitimate "need to know." However, the contractors
         we reference in this report operate Federal facilities, are subject to
         Federal oversight, and many already have access to sensitive data
         in order to perform their daily work. As noted in the report, secure
         contractor access is possible by restricting the level of access or by
         using batch processing techniques to monitor and control
         contractor changes. For example, as we discussed with program
         officials during our audit, batch techniques could eliminate manual
         processing methods and permit electronic entry of data by
         contractors while providing Federal officials with the ability to
         review and approve the data prior to releasing it to the system.

         Where appropriate we have incorporated management's technical
         comments in the body of this report. Management's comments are
         included in Appendix 3.




Page 6                                                      Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the
              Department had adopted an integrated and cost-effective approach
              for developing and maintaining personnel security and physical
              access control information systems.


SCOPE         The audit was performed between December 2002 and October
              2003 at the National Energy Technology Laboratory in
              Morgantown, WV, and Pittsburgh, PA; the Pittsburgh Naval
              Reactors in West Mifflin, PA; Departmental Headquarters in
              Washington, DC, and Germantown, MD; the Oak Ridge
              Reservation in Oak Ridge, TN; the Los Alamos National
              Laboratory in Los Alamos, NM; and the Sandia National
              Laboratories and the NNSA Service Center in Albuquerque, NM.
              We also obtained information from the Lawrence Livermore
              National Laboratory in Livermore, CA.


METHODOLOGY   To accomplish our objective, we:

                 •   Reviewed applicable laws and regulations pertaining to
                     personnel security and access control systems. We also
                     reviewed reports issued by the Office of Inspector General
                     and the General Accounting Office;

                 •   Reviewed the Government Performance and Results Act of
                     1993 and determined if performance measures had been
                     established for personnel security and access control
                     systems;

                 •   Reviewed numerous documents related to all personnel
                     security and access control systems in operation or under
                     development at the sites we visited;

                 •   Reviewed documentation pertaining to Department-wide
                     personnel security and access control initiatives, such as the
                     OMB Exhibit 300 budget submission for eDISS+ and the
                     CWAC budget plan; and

                 •   Held discussions with program officials and personnel from
                     Department of Energy Headquarters, including
                     representatives from the Office of the Chief Information
                     Officer, field sites visited, and the Department of Defense.




Page 7                                Objective, Scope, and Methodology
Appendix 1

             The audit was conducted in accordance with generally accepted
             Government auditing standards for performance audits and
             included tests of internal controls and compliance with laws and
             regulations to the extent necessary to satisfy the audit objectives.
             Accordingly, we assessed internal controls regarding the
             management of the Department's personnel security and access
             control systems. Because our review was limited, it would not
             necessarily have disclosed all internal control deficiencies that may
             have existed at the time of our audit. While we examined a
             number of systems access and control related issues, we did not
             rely on computer-processed data to accomplish our audit objective.




Page 8                               Objective, Scope, and Methodology
Appendix 2

                                      PRIOR REPORTS


•   Management Challenges at the Department of Energy (DOE/IG-0626, November 2003).
    The Department continued to experience challenges in a number of important areas,
    including information technology management and national security. Specifically, the
    Department had not fully satisfied the requirements of the Clinger-Cohen Act to effectively
    manage information technology. The lack of a baseline to guide the acquisition and
    management of information technology resources was one of the significant barriers
    identified to achieving the objectives of the Clinger-Cohen Act.

•   Personnel Security Clearances and Badge Access Controls at Selected Field Locations
    (DOE/IG-0582, January 2003). At three of four field sites visited, minor discrepancies were
    found in the recovery of badges. However, the fourth site had a significant number of badges
    that had not been recovered from former contractor and other non-Federal workers.
    Specifically, the site had not recovered badges for eight percent of the workers included in
    the sample that had terminated their employment with the Department. These discrepancies
    occurred because non-automated transmission of the data was not always effective. Further,
    site badge officials did not always follow up with Department personnel security offices to
    ensure that the termination information was received and that the clearance system was
    updated.

•   Personnel Security Clearances and Badge Access Controls at Department Headquarters
    (DOE/IG-0548, March 2002). Due to problems with the Department's clearance and badging
    controls, unauthorized individuals could gain access to Department Headquarters.
    Specifically, the Headquarters badging system and the Central Personnel Clearance Index
    contained inaccurate information regarding the status of employee terminations. The
    inaccuracy of the information could allow unauthorized personnel to enter Department
    Headquarters facilities and present a risk to national security. The systems contained
    inaccurate data because program offices did not always provide information regarding
    employee status to Headquarters Security Operations.

•   Information Technology Support Services Contracts (DOE/IG-0516, August 2001). The
    Department was not effectively managing the acquisition of information technology support
    services. Problems arose because the Department had not developed and implemented a
    framework for acquiring information technology support services in an efficient and
    cost-effective manner. As a result, the report concluded that savings of as much as
    $44 million may be possible over a three year period by adopting a Department-wide
    approach.

•   The Department of Energy's Implementation of the Clinger-Cohen Act of 1996
    (DOE/IG-0507, June 2001). The Department had not satisfied major requirements of the
    Clinger-Cohen Act. Specifically, it had not developed and implemented an integrated




Page 9                                                                        Prior Reports
Appendix 2

    enterprise-wide, information technology architecture. Additionally, it did not acquire
    information technology related assets in an effective and efficient manner. As a result of
    these problems, potential operational efficiencies and savings totaling more than
    $100 million were possible through better implementation of Clinger-Cohen requirements.

•   Corporate and Stand-Alone Information Systems Development (DOE/IG-0485, September
    2000). The Department had spent at least $38 million developing duplicative information
    systems, and redundant computer systems existed or were being developed at nearly all
    organizational levels within the Department. Specifically, there were 115 separate security
    applications in place at five of the field sites sampled. The existence of duplicate information
    systems occurred because the Department had not finalized a conceptual Information
    Technology Architecture Plan to control development and the plan was only applicable to
    Headquarters.




Page 10                                                                         Prior Reports
Appendix 3




Page 11      Management Comments
Appendix 3




Page 12      Management Comments
Appendix 3




Page 13      Management Comments
Appendix 3




Page 14      Management Comments
                                                                    IG Report No. DOE/IG:0651

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
